HHS/OIG-Audit--"Medicare as a Secondary Payer - Review of the Health
Care Financing Administration's Efforts to Implement the Data Match Project,
(A-09-91-00103)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare as a Secondary Payer - Review of the Health Care Financing
Administration's Efforts to Implement the Data Match Project," (A-09-91-00103)
August 26, 1992
Complete
Text of Report is available in PDF format (183 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Health Care Financing
Administration's (HCFA) ongoing implementation of the Data Match project (project).
The project requires data matches and employer contacts to identify beneficiaries
covered by employer group health plans. Although improvements could be made
in several areas, we found that HCFA was generally providing adequate supervision
and direction to the project.